                  Department of Veterans Affairs
                  Office of Inspector General


                    Office of Healthcare Inspections

Report No. 13-01972-284




  Combined Assessment Program

            Review of the

 Charlie Norwood VA Medical Center

          Augusta, Georgia





August 19, 2013

                        Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations

                    Telephone: 1-800-488-8244

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                                  CAP Review of the Charlie Norwood VA Medical Center, Augusta, GA



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 CS             controlled substances
                 EHR            electronic health record
                 EOC            environment of care
                 facility       Charlie Norwood VA Medical Center
                 FPPE           Focused Professional Practice Evaluation
                 FY             fiscal year
                 HPC            hospice and palliative care
                 MH             mental health
                 NA             not applicable
                 NC             noncompliant
                 OIG            Office of Inspector General
                 PCCT           Palliative Care Consult Team
                 PU             pressure ulcer
                 QM             quality management
                 RME            reusable medical equipment
                 SPS            Sterile Processing Service
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                            CAP Review of the Charlie Norwood VA Medical Center, Augusta, GA



                                            Table of Contents

                                                                                                                           Page

Executive Summary ...................................................................................................            i


Objectives and Scope ................................................................................................            1

  Objectives ...............................................................................................................     1

  Scope......................................................................................................................    1


Reported Accomplishments......................................................................................                   2


Results and Recommendations ................................................................................ 3

  QM .......................................................................................................................... 3

  EOC ........................................................................................................................ 5

  Medication Management – CS Inspections............................................................. 8

  Coordination of Care – HPC ................................................................................... 10

  PU Prevention and Management ............................................................................ 11

  Nurse Staffing ......................................................................................................... 13


Appendixes
  A. Facility Profile ....................................................................................................      14

  B. VHA Patient Satisfaction Survey and Hospital Outcome of Care Measures......                                                15

  C. VISN Director Comments ..................................................................................                  16

  D. Interim Facility Director Comments ...................................................................                     17

  E. OIG Contact and Staff Acknowledgments .........................................................                            23

  F. Report Distribution .............................................................................................          24

  G. Endnotes ...........................................................................................................       25





VA OIG Office of Healthcare Inspections
                                  CAP Review of the Charlie Norwood VA Medical Center, Augusta, GA



                                Executive Summary

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
June 3, 2013.

Review Results: The review covered six activities. We made no recommendations
in the following two activities:

   Coordination of Care – Hospice and Palliative Care

   Nurse Staffing

The facility’s reported accomplishments were a community living center restorative
gymnasium and orthopedic joint replacement services.

Recommendations: We made recommendations in the following four activities:
Quality Management: Consistently complete Focused Professional Practice Evaluations
for newly hired licensed independent practitioners. Include in code reviews screening
for clinical issues prior to codes that may have contributed to the occurrence of the
codes. Consistently scan results of non-VA purchased diagnostic tests into electronic
health records. Ensure clinicians perform and document patient assessments following
blood product transfusions.

Environment of Care: Ensure Infection Prevention/Control Committee minutes reflect
follow-up on actions that were implemented to address identified problems. Require
that patient care area ventilation system outlets, public restrooms, and nourishment
refrigerators are clean. Ensure restrooms designated for female patients in the
women’s health clinic have door locks. Maintain Sterile Processing Service sterile
storage area humidity levels within acceptable levels.

Medication Management – Controlled Substances Inspections: Inspect all required
non-pharmacy areas with controlled substances. Ensure inspectors verify five hard
copy prescription orders for all non-pharmacy areas.

Pressure Ulcer Prevention and Management: Provide and document pressure ulcer
education for patients at risk for and with pressure ulcers and/or their caregivers.
Ensure equipment used for medication administration is routinely inspected and
repaired or removed from service. Secure prescription medications at all times.




VA OIG Office of Healthcare Inspections                                                          i
                                  CAP Review of the Charlie Norwood VA Medical Center, Augusta, GA


Comments
The Veterans Integrated Service Network Director and Interim Facility Director agreed
with the Combined Assessment Program review findings and recommendations and
provided acceptable improvement plans. (See Appendixes C and D, pages 16–22, for
the full text of the Directors’ comments. We will follow up on the planned actions until
they are completed.




                                                          JOHN D. DAIGH, JR., M.D.

                                                         Assistant Inspector General for

                                                            Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                          ii
                                  CAP Review of the Charlie Norwood VA Medical Center, Augusta, GA



                              Objectives and Scope

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	   Conduct recurring evaluations of selected health care facility operations, focusing
        on patient care quality and the EOC.

   	   Provide crime awareness briefings to increase employee understanding of the
        potential for program fraud and the requirement to refer suspected criminal
        activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following six activities:

   	   QM

   	   EOC

   	   Medication Management – CS Inspections

   	   Coordination of Care – HPC

   	   PU Prevention and Management

   	   Nurse Staffing

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2012 and FY 2013 through
June 6, 2013, and was done in accordance with OIG standard operating procedures for
CAP reviews. We also asked the facility to provide the status on the recommendations
we made in our previous CAP report (Combined Assessment Program Review of the




VA OIG Office of Healthcare Inspections                                                         1
                                  CAP Review of the Charlie Norwood VA Medical Center, Augusta, GA


Charlie Norwood VA Medical Center, Augusta, Georgia, Report No. 09-03298-80,
February 2, 2010).

During this review, we presented crime awareness briefings for 635 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
665 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                         Reported Accomplishments

CLC Restorative Gymnasium
Through interdisciplinary collaboration, a restorative gymnasium was opened in
January 2013 to provide a private space for CLC residents to maintain or attain their
functional abilities. The gymnasium is open from 8:00 a.m. to 3:00 p.m., and residents
have scheduled appointments and snacks afterwards. Previously, CLC residents
received restorative care only at their bedside and often refused. Since the gymnasium
opened, the restorative care refusal rate has decreased from 60 percent to 10 percent.
Additionally, employees have noted that through gymnasium participation, residents
have formed friendships with other residents and have bonded with restorative care
staff.

Orthopedic Joint Replacement Services
In November 2012, $2.9 million in incentive funding for orthopedic joint replacement
services was awarded to the facility and other members of the Georgia Federal
Healthcare Executive Council. Other council participants include the Dwight David
Eisenhower Army Medical Center and the Carl Vinson VA Medical Center. The purpose
of this funding is to provide joint replacement services to the veteran population of
Georgia while maximizing the utilization of orthopedic surgical services and operating
room facilities at Dwight David Eisenhower Army Medical Center and the post-operative
rehabilitation services at both the Carl Vinson VA Medical Center and the facility. As of
April 2013, nine veterans have benefited from this partnership.




VA OIG Office of Healthcare Inspections                                                         2
                                          CAP Review of the Charlie Norwood VA Medical Center, Augusta, GA



                          Results and Recommendations

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility complied with selected
requirements within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NC needed improvement. Any items that did not apply to this
facility are marked NA.

 NC                     Areas Reviewed                                        Findings
       There was a senior-level committee/group
       responsible for QM/performance improvement,
       and it included the required members.
       There was evidence that Inpatient Evaluation
       Center data was discussed by senior
       managers.
       Corrective actions from the protected peer
       review process were reported to the Peer
       Review Committee.
 X     FPPEs for newly hired licensed independent         Fifteen profiles reviewed:
       practitioners complied with selected                Of 14 FPPEs initiated, 2 were not
       requirements.                                          completed.
       Local policy for the use of observation beds
       complied with selected requirements.
       Data regarding appropriateness of observation
       bed use was gathered, and conversions to
       acute admissions were less than 30 percent, or
       the facility had reassessed observation criteria
       and proper utilization.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
       Appropriate processes were in place to prevent
       incidents of surgical items being retained in a
       patient following surgery.
 X     The cardiopulmonary resuscitation review              There was no evidence that code reviews
       policy and processes complied with                     included screening for clinical issues prior
       requirements for reviews of episodes of care           to codes that may have contributed to the
       where resuscitation was attempted.                     occurrence of the codes.
       There was an EHR quality review committee,
       and the review process complied with selected
       requirements.
       The EHR copy and paste function was
       monitored.




VA OIG Office of Healthcare Inspections                                                                      3
                                          CAP Review of the Charlie Norwood VA Medical Center, Augusta, GA


 NC             Areas Reviewed (continued)                                    Findings
 X     Appropriate quality control processes were in     Thirty EHRs of patients who had non-VA
       place for non-VA care documents, and the          purchased diagnostic tests reviewed:
       documents were scanned into EHRs.                  Twenty-three test results (77 percent) were
                                                             not scanned into the EHRs.
 X     Use and review of blood/transfusions complied     Twenty-seven EHRs of patients who received
       with selected requirements.                       blood products reviewed:
                                                          Six EHRs contained no documentation that
                                                             the outcome was assessed.
       CLC minimum data set forms were transmitted
       to the data center with the required frequency.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       There was evidence at the senior leadership
       level that QM, patient safety, and systems
       redesign were integrated.
       Overall, there was evidence that senior
       managers were involved in performance
       improvement over the past 12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

1. We recommended that processes be strengthened to ensure that FPPEs for newly hired
licensed independent practitioners are consistently completed.

2. We recommended that processes be strengthened to ensure that code reviews include
screening for clinical issues prior to codes that may have contributed to the occurrence of the
codes.

3. We recommended that processes be strengthened to ensure that the results of non-VA
purchased diagnostic tests are consistently scanned into EHRs.

4. We recommended that processes be strengthened to ensure that clinicians perform and
document patient assessments following blood product transfusions.




VA OIG Office of Healthcare Inspections                                                                  4
                                          CAP Review of the Charlie Norwood VA Medical Center, Augusta, GA


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in the hemodialysis and SPS areas were met.2

We inspected 15 areas. At the downtown division, we inspected the emergency department;
the 4A (surgical), 5D (medical), critical care, spinal cord injury, and hemodialysis inpatient units;
the 4D (primary care) and gastrointestinal clinics; and SPS. At the uptown division, we
inspected the CLC (1C, 2A, and 2B) and acute MH units and the women’s health and dental
clinics. Additionally, we reviewed relevant documents, conversed with key employees and
managers, and reviewed 29 employee training and competency files (9 hemodialysis,
10 operating room, and 10 SPS). The table below shows the areas reviewed for this topic. The
areas marked as NC needed improvement. Any items that did not apply to this facility are
marked NA.

 NC           Areas Reviewed for General EOC                               Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
 X     Infection Prevention/Control Committee           Six months of Infection Prevention/Control
       minutes documented discussion of identified      Committee meeting minutes reviewed:
       problem areas and follow-up on implemented        Minutes did not reflect follow-up on actions
       actions and included analysis of surveillance       that were implemented to address identified
       activities and data.                                problems.
       Fire safety requirements were met.
 X     Environmental safety requirements were met.       Nine of 12 patient care areas did not have
                                                          clean ventilation system outlets.
                                                         Two public restrooms were in need of
                                                          cleaning.
                                                         Three of nine patient nourishment
                                                          refrigerators were in need of cleaning.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Sensitive patient information was protected,
       and patient privacy requirements were met.
 X     The facility complied with any additional        VHA policy reviewed:
       elements required by VHA, local policy, or        Women’s health clinic restrooms had two
       other regulatory standards.                        doors that opened into adjoining examination
                                                          rooms, but the doors did not have locks.




VA OIG Office of Healthcare Inspections                                                                  5
                                           CAP Review of the Charlie Norwood VA Medical Center, Augusta, GA


 NC          Areas Reviewed for Hemodialysis                                 Findings
       The facility had policy detailing the cleaning
       and disinfection of hemodialysis equipment
       and environmental surfaces and the
       management of infection prevention
       precautions patients.
       Monthly biological water and dialysate testing
       were conducted and included required
       components, and identified problems were
       corrected.
       Employees received training on bloodborne
       pathogens.
       Employee hand hygiene monitoring was
       conducted, and any needed corrective actions
       were implemented.
       Selected EOC/infection prevention/safety
       requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for SPS/RME
       The facility had policies/procedures/guidelines
       for cleaning, disinfecting, and sterilizing RME.
       The facility used an interdisciplinary approach
       to monitor compliance with established RME
       processes, and RME-related activities were
       reported to an executive-level committee.
       The facility had policies/procedures/guidelines
       for immediate use (flash) sterilization and
       monitored it.
       Employees received required RME training
       and competency assessment.
       Operating room employees who performed
       immediate use (flash) sterilization received
       training and competency assessment.
       RME standard operating procedures were
       consistent with manufacturers’ instructions,
       procedures were located where reprocessing
       occurs, and sterilization was performed as
       required.
       Selected infection prevention/environmental
       safety requirements were met.
 X     Selected requirements for SPS                       Sterile storage area humidity levels were out
       decontamination and sterile storage areas            of range for 5 consecutive weeks.
       were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.




VA OIG Office of Healthcare Inspections                                                                     6
                                          CAP Review of the Charlie Norwood VA Medical Center, Augusta, GA



Recommendations

5. We recommended that processes be strengthened to ensure that Infection
Prevention/Control Committee minutes reflect follow-up on actions that were implemented to
address identified problems.

6. We recommended that processes be strengthened to ensure that patient care area
ventilation system outlets, public restrooms, and nourishment refrigerators are clean and that
compliance be monitored.

7. We recommended that processes be strengthened to ensure that restrooms designated for
female patients in the women’s health clinic have door locks.

8. We recommended that processes be strengthened to ensure that SPS sterile storage area
humidity levels are maintained within acceptable levels and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                 7
                                          CAP Review of the Charlie Norwood VA Medical Center, Augusta, GA


Medication Management – CS Inspections
The purpose of this review was to determine whether the facility complied with requirements
related to CS security and inspections.3

We reviewed relevant documents and conversed with key employees. We also reviewed the
training files of the CS Coordinator, the alternate CS Coordinator, and 10 CS inspectors and
inspection documentation from 10 CS areas, the inpatient and outpatient pharmacies, and the
emergency drug cache. The table below shows the areas reviewed for this topic. The area
marked as NC needed improvement. Any items that did not apply to this facility are marked
NA.

 NC                    Areas Reviewed                                       Findings
       Facility policy was consistent with VHA
       requirements.
       VA police conducted annual physical security
       surveys of the pharmacy/pharmacies, and
       any identified deficiencies were corrected.
       Instructions for inspecting automated
       dispensing machines were documented,
       included all required elements, and were
       followed.
       Monthly CS inspection findings summaries
       and quarterly trend reports were provided to
       the facility Director.
       CS Coordinator position description(s) or
       functional statement(s) included duties, and
       CS Coordinator(s) completed required
       certification and were free from conflicts of
       interest.
       CS inspectors were appointed in writing,
       completed required certification and training,
       and were free from conflicts of interest.
 X     Non-pharmacy areas with CS were inspected        Documentation of 10 CS areas inspected during
       in accordance with VHA requirements, and         the past 6 months reviewed:
       inspections included all required elements.       Four required areas were not inspected for
                                                           2 consecutive months.
                                                         Inspectors did not verify 5 hard copy
                                                           prescription orders for 4 months in 3 separate
                                                           non-pharmacy areas.
       Pharmacy CS inspections were conducted in
       accordance with VHA requirements and
       included all required elements.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                     8
                                          CAP Review of the Charlie Norwood VA Medical Center, Augusta, GA



Recommendations

9. We recommended that processes be strengthened to ensure that all required
non-pharmacy areas with CS are inspected and that compliance be monitored.

10. We recommended that processes be strengthened to ensure that inspectors verify five hard
copy prescription orders for all non-pharmacy areas and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                 9
                                          CAP Review of the Charlie Norwood VA Medical Center, Augusta, GA


Coordination of Care – HPC
The purpose of this review was to determine whether the facility complied with selected
requirements related to HPC, including PCCT, consults, and inpatient services.4

We reviewed relevant documents, 20 EHRs of patients who had PCCT consults (including
10 HPC inpatients), and 25 employee training records (10 HPC staff records and 15 non-HPC
staff records), and we conversed with key employees. The table below shows the areas
reviewed for this topic. Any items that did not apply to this facility are marked NA. The facility
generally met requirements. We made no recommendations.

 NC                     Areas Reviewed                                     Findings
       A PCCT was in place and had the dedicated
       staff required.
       The PCCT actively sought patients
       appropriate for HPC.
       The PCCT offered end-of-life training.
       HPC staff and selected non-HPC staff had
       end-of-life training.
       The facility had a VA liaison with community
       hospice programs.
       The PCCT promoted patient choice of location
       for hospice care.
       The CLC-based hospice program offered
       bereavement services.
       The HPC consult contained the word
       “palliative” or “hospice” in the title.
       HPC consults were submitted through the
       Computerized Patient Record System.
       The PCCT responded to consults within the
       required timeframe and tracked consults that
       had not been acted upon.
       Consult responses were attached to HPC
       consult requests.
       The facility submitted the required electronic
       data for HPC through the VHA Support
       Service Center.
       An interdisciplinary team care plan was
       completed for HPC inpatients within the
       facility’s specified timeframe.
       HPC inpatients were assessed for pain with
       the frequency required by local policy.
       HPC inpatients’ pain was managed according
       to the interventions included in the care plan.
       HPC inpatients were screened for an
       advanced directive upon admission and
       according to local policy.
       The facility complied with any additional
       elements required by VHA or local policy.



VA OIG Office of Healthcare Inspections                                                                10
                                          CAP Review of the Charlie Norwood VA Medical Center, Augusta, GA


PU Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive PU prevention and management.5

We reviewed relevant documents, 26 EHRs of patients with PUs (10 patients with
hospital-acquired PUs, 10 patients with community-acquired PUs, and 6 patients with PUs at the
time of our onsite visit), and 10 employee training records. Additionally, we inspected three
patient rooms. The table below shows the areas reviewed for this topic. The areas marked as
NC needed improvement. Any items that did not apply to this facility are marked NA.

 NC                     Areas Reviewed                                       Findings
       The facility had a PU prevention policy, and it
       addressed prevention for all inpatient areas
       and for outpatient care.
       The facility had an interprofessional PU
       committee, and the membership included a
       certified wound care specialist.
       PU data was analyzed and reported to facility
       executive leadership.
       Complete skin assessments were performed
       within 24 hours of acute care admissions.
       Skin inspections and risk scales were
       performed upon transfer, change in condition,
       and discharge.
       Staff were generally consistent in
       documenting location, stage, risk scale score,
       and date acquired.
       Required activities were performed for
       patients determined to be at risk for PUs and
       for patients with PUs.
       Required activities were performed for
       patients determined to not be at risk for PUs.
       For patients at risk for and with PUs
       interprofessional treatment plans were
       developed, interventions were recommended,
       and EHR documentation reflected that
       interventions were provided.
       If the patient’s PU was not healed at
       discharge, a wound care follow-up plan was
       documented, and the patient was provided
       appropriate dressing supplies.
 X     The facility defined requirements for patient     Facility PU patient and caregiver education
       and caregiver PU education, and education on      requirements reviewed:
       PU prevention and development was provided         For 7 of 17 applicable patients at risk for/with
       to those at risk for and with PUs and/or their       a PU, EHRs did not contain evidence that
       caregivers.                                          education was provided.



VA OIG Office of Healthcare Inspections                                                                   11
                                          CAP Review of the Charlie Norwood VA Medical Center, Augusta, GA


 NC             Areas Reviewed (continued)                                   Findings
       The facility-defined requirements for staff PU
       education, and acute care staff received
       training on how to administer the PU risk
       scale, conduct the complete skin assessment,
       and accurately document findings.
 X     The facility complied with selected fire and     Infection prevention:
       environmental safety, infection prevention,       A medication barcode scanner and its holder,
       and medication safety and security                  used in multiple patient rooms, were in
       requirements in PU patient rooms.                   disrepair and held together with cloth tape,
                                                           which limited effective cleaning.
                                                        Medication safety and security:
                                                         In all three rooms, prescription ointments and
                                                          creams were stored in an unlocked drawer.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

11. We recommended that processes be strengthened to ensure that acute care staff provide
and document PU education for patients at risk for and with PUs and/or their caregivers and that
compliance be monitored.

12. We recommended that processes be strengthened to ensure that equipment used for
medication administration is routinely inspected and repaired or removed from service.

13. We recommended that processes be strengthened to ensure that prescription medications
are secured at all times and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                12
                                          CAP Review of the Charlie Norwood VA Medical Center, Augusta, GA


Nurse Staffing
The purpose of this review was to determine the extent to which the facility implemented the
staffing methodology for nursing personnel and to evaluate nurse staffing on three inpatient
units (acute medical/surgical, long-term care, and MH).6

We reviewed relevant documents and 43 training files, and we conversed with key employees.
Additionally, we reviewed the actual nursing hours per patient day reported by the facility for
acute medical/surgical unit 5D, CLC unit 1D, and MH unit 2G for 52 randomly selected days
(holidays, weekdays, and weekend days) between October 1, 2012, and March 31, 2013. The
table below shows the areas reviewed for this topic. Any items that did not apply to this facility
are marked NA. The facility generally met requirements. We made no recommendations.

 NC                    Areas Reviewed                                      Findings
       The facility completed the required steps to
       develop a nurse staffing methodology by the
       deadline.
       The unit-based expert panels followed the
       required processes and included all required
       members.
       The facility expert panel followed the required
       processes and included all required members.
       Members of the expert panels completed the
       required training.
       The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                13
                                         CAP Review of the Charlie Norwood VA Medical Center, Augusta, GA
                                                                                              Appendix A


      Facility Profile (Augusta/509) FY 2013 through April 2013a
Type of Organization                                                             Tertiary
Complexity Level                                                                 1b-High complexity
Affiliated/Non-Affiliated                                                        Affiliated
Total Medical Care Budget in Millions                                            $328.5
Number (through May 2013) of:
    Unique Patients                                                             35,738
    Outpatient Visits                                                           305,562
    Unique Employeesb                                                           1,895
Type and Number of Operating Beds:
    Hospital                                                                    255
    CLC                                                                         132
    MH                                                                          60
Average Daily Census:
    Hospital                                                                    145
    CLC                                                                         88
    MH                                                                          38
Number of Community Based Outpatient Clinics                                     2
Location(s)/Station Number(s)                                                    Athens/509GA
                                                                                 Aiken/509GB
VISN Number                                                                      7




a
    All data is for FY 2013 through April 2013 except where noted.
b
    Unique employees involved in direct medical care (cost center 8200).


VA OIG Office of Healthcare Inspections                                                               14
                                       CAP Review of the Charlie Norwood VA Medical Center, Augusta, GA
                                                                                            Appendix B


                          VHA Patient Satisfaction Survey

VHA has identified patient satisfaction scores as significant indicators of facility
performance. Patients are surveyed monthly. Table 1 below shows facility, VISN, and
VHA overall inpatient and outpatient satisfaction scores for FY 2012.

Table 1

                   Inpatient Scores                                 Outpatient Scores
                       FY 2012                                          FY 2012
                Inpatient       Inpatient       Outpatient       Outpatient       Outpatient       Outpatient
                Score           Score           Score            Score            Score            Score
                Quarters 1–2    Quarters 3–4    Quarter 1        Quarter 2        Quarter 3        Quarter 4
    Facility    54.5            61.5            56.3             44.5             52.2             52.4
    VISN        63.3            65.9            51.8             51.3             50.6             51.1
    VHA         63.9            65.0            55.0             54.7             54.3             55.0



                       Hospital Outcome of Care Measures

Hospital Outcome of Care Measures show what happened after patients with certain
conditions received hospital care.c Mortality (or death) rates focus on whether patients
died within 30 days of being hospitalized. Readmission rates focus on whether patients
were hospitalized again within 30 days of their discharge. These rates are based on
people who are 65 and older and are “risk-adjusted” to take into account how sick
patients were when they were initially admitted. Table 2 below shows facility and U.S.
national Hospital Outcome of Care Measure rates for patients discharged between
July 1, 2008, and June 30, 2011.d

Table 2

                                Mortality                                      Readmission
               Heart Attack    Heart            Pneumonia       Heart Attack     Heart            Pneumonia
                               Failure                                           Failure
    Facility   18.0            12.3             17.4            19.8             24.0             19.0
    U.S.
    National   15.5            11.6             12.0            19.7             24.7             18.5




c
  A heart attack occurs when blood flow to a section of the heart muscle becomes blocked, and the blood supply is
slowed or stopped. If the blood flow is not restored timely, the heart muscle becomes damaged. Heart failure is a
weakening of the heart’s pumping power. Pneumonia is a serious lung infection that fills the lungs with mucus and
causes difficulty breathing, fever, cough, and fatigue.
d
  Rates were calculated from Medicare data and do not include data on people in Medicare Advantage Plans (such as
health maintenance or preferred provider organizations) or people who do not have Medicare.


VA OIG Office of Healthcare Inspections                                                                         15
                                   CAP Review of the Charlie Norwood VA Medical Center, Augusta, GA
                                                                                        Appendix C
                              VISN Director Comments



                Department of
                Veterans Affairs                                   Memorandum


       Date:	          August 1, 2013

       From:	          Director, VA Southeast Network (10N7)

       Subject:	       CAP Review of the Charlie Norwood VA Medical Center,
                       Augusta, GA

       To:	            Director, Baltimore Office of Healthcare Inspections (54BA)

                       Acting Director, Management Review Service (VHA 10AR
                       MRS OIG CAP CBOC)

       1.	 I have reviewed the findings and recommendations for the subject
           report and I support the medical center’s concurrence and action
           plans.

       2.	 If there are any further, questions or comments please contact
           Robin Hindsman, Psy.D, Quality Management Officer, VISN 7 at
           678-925-5723.


                 (original signed by:)
           Charles E. Sepich, FACHE




VA OIG Office of Healthcare Inspections                                                         16
                                   CAP Review of the Charlie Norwood VA Medical Center, Augusta, GA
                                                                                        Appendix D
                      Interim Facility Director Comments



               Department of
               Veterans Affairs                                    Memorandum


       Date:           July 29, 2013

       From:           Interim Director, Charlie Norwood VA Medical Center,
                       Augusta, GA (509/00)

       Subject:        CAP Review of Charlie Norwood VA Medical Center,
                       Augusta, GA

       To:             Director, VA Southeast Network (10N7)

       1. I have reviewed the draft report and concur with the report’s
          recommendations.

       2.	 Thank you for the opportunity to review the draft report. Attached is
           the complete corrective action plan for the report’s recommendations.
           If you have any questions, please contact Kimberlie Denmark, RN,
           Chief, Quality Management Service, at 706-733-0188, extension 2447.


                   (original signed by:)
           Michelle Cox-Henley, RN, MSN

           Attachment




VA OIG Office of Healthcare Inspections                                                         17
                                  CAP Review of the Charlie Norwood VA Medical Center, Augusta, GA


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
FPPEs for newly hired licensed independent practitioners are consistently completed.

Concur

Target date for completion: December 15, 2013

Facility response: To ensure the FPPEs are consistently completed, the Medical Staff
Office dedicated a coordinator to track and manage the FPPE program. The
coordinator has enhanced the process by the development of an Excel database to
track Providers scheduled for FPPE process. The FPPE’s are scheduled for completion
within 90 days, unless the Professional Standards Board (PSB) approves a for 30 day
extension. The FPPE’s will be presented to the PSB for recommendation within
30 days of the due date of completion. Random audits will be conducted to ensure
FPPE completion within the prescribed timeframes with a goal of 90% sustained
compliance.

Recommendation 2. We recommended that processes be strengthened to ensure that
code reviews include screening for clinical issues prior to codes that may have
contributed to the occurrence of the codes.

Concur

Target date for completion: December 15, 2013

Facility response: The CPR Committee will review and revise the existing code review
tool to include clinical issues prior to the code that may have contributed to the code.
This information will be compiled monthly and included in the code review data
presentation to the CPR Committee quarterly.

Recommendation 3. We recommended that processes be strengthened to ensure that
the results of non-VA purchased diagnostic tests are consistently scanned into EHRs.

Concur

Target date for completion: December 15, 2013

Facility response: June 2013, the NVCC and HIMS department collaborated to develop
a more responsive and effective process. The process ensured that clinically
appropriate and complete results for Non-VA Care records are scanned within 72 hours


VA OIG Office of Healthcare Inspections                                                        18
                                  CAP Review of the Charlie Norwood VA Medical Center, Augusta, GA


of receipt and date stamped by the scanning unit. An SOP will be developed to outline
this process. Random audits will be conducted to ensure the diagnostic results are
scanned and date stamped into the EHR within the 72 hour timeframe after receipt from
the NVCC with a goal of 90% sustained compliance.

Recommendation 4. We recommended that processes be strengthened to ensure that
clinicians perform and document patient assessments following blood product
transfusions.

Concur

Target date for completion: December 15, 2013

Facility response: Medical Staff will be responsible for documenting the outcome
assessment following blood transfusion in the medical record.             Education and
notification of required compliance will be provided to the medical staff by the Chief of
Staff. The Associate Chief of Staff for Education/Affiliation is responsible for ensuring
the education of the medical staff on the facility’s required documentation following
blood product administration by the licensed independent practitioners is completed and
maintained at minimum of is 90%. Random audits will be conducted to ensure the
outcomes assessments of blood product administration are completed and documented
with a goal of 90% sustained compliance.

Recommendation 5. We recommended that processes be strengthened to ensure that
Infection Prevention/Control Committee minutes reflect follow-up on actions that were
implemented to address identified problems.

Concur

Target date for completion: December 15, 2013

Facility response: To ensure documentation reveals the analysis of problems, plans for
resolution, interventions taken and follow-up evaluations, the template for the Infection
Prevention/Control Committee minutes has been modified to reflect these components
for ongoing follow through of identified issues. Review of the committee’s prior minutes
will be conducted when developing the next meeting’s agenda for old business items.
The new format was implemented in May 2013. The Infection Control Chairperson will
complete a review of the past 6 months’ minutes to ensure closure for all items requiring
follow-up have been addressed or remain as an open agenda item for follow action.
Audit for completion of follow through and/or follow up will be conducted to ensure
compliance is sustained over the next quarter.




VA OIG Office of Healthcare Inspections                                                        19
                                  CAP Review of the Charlie Norwood VA Medical Center, Augusta, GA


Recommendation 6. We recommended that processes be strengthened to ensure that
patient care area ventilation system outlets, public restrooms, and nourishment
refrigerators are clean and that compliance be monitored.

Concur

Target date for completion: December 15, 2013

Facility response: During the survey process, the Environmental Management Services
(EMS) Leadership conducted a full inspection of all noted problem areas, corrected all
identified issues and verified follow-up cleaning was completed. To confirm this
cleanliness is maintained, the existing auditing tool used for biweekly rounds was
reviewed and confirmed the inclusion of these areas/items. EMS is in progress of
reinforcing their training for staff regarding proper cleaning of these areas. Education
will be provided and tracked with a completion of 90% to the appropriate EMS staff.
Ongoing compliance is maintained by entering the audit tool results in the existing EMS
database review program for sustained compliance of 90% for the identified areas.

Work order# AD130725-003 was generated to the Downtown Division HVAC Shop to
systematically replace the ventilation system outlets, due to the inability to be properly
cleaned.

Recommendation 7. We recommended that processes be strengthened to ensure that
restrooms designated for female patients in the women’s health clinic have door locks.

Concur

Target date for completion: December 15, 2013

Facility response: Appropriate locking devices for the women’s restroom have been
selected and approved. The order has been submitted and locks will be installed upon
receipt.

Recommendation 8. We recommended that processes be strengthened to ensure that
SPS sterile storage area humidity levels are maintained within acceptable levels and
that compliance be monitored.

Concur

Target date for completion: December 15, 2013

Facility response: Existing humidity levels will continue to be monitored by the Metysis
System every 10 minutes and any issues will be addressed within the capabilities of the
existing building service equipment. When the humidity is outside the acceptable
range, engineering will repair, adjust or modify the equipment to bring the humidity to an
acceptable range and the action will be tracked to ensure resolution. MCP will be
reviewed and revised to address range outliers and the notification process. A



VA OIG Office of Healthcare Inspections                                                        20
                                  CAP Review of the Charlie Norwood VA Medical Center, Augusta, GA


complete renovation of the existing space for SPS operations is planned and
construction is to begin in August 2013.

Recommendation 9. We recommended that processes be strengthened to ensure that
all required non-pharmacy areas with CS are inspected and that compliance be
monitored.

Concur

Target date for completion: December 15, 2013

Facility response: Monthly inspections are scheduled to provide a strict timeframe for
inspection completion. Education has also been provided to inspectors concerning
assigned inspection guidelines, timeframes, and inspector responsibilities if unable to
perform a scheduled inspection.         An SOP will be developed outlining these
requirements, timeframes and guidelines. Audit will be conducted to ensure that
all-required non-pharmacy areas with CS are inspected and tracked for continued
monitoring for a target of 100% for all required non-pharmacy areas for sustained
compliance for the next quarter, then no greater than one missed inspection per year.

Recommendation 10. We recommended that processes be strengthened to ensure
that inspectors verify five hard copy prescription orders for all non-pharmacy areas and
that compliance will be monitored.

Concur

Target date for completion: December 15, 2013

Facility response: The five hard copy prescription verification process for non-pharmacy
area is completed as part of a consolidated review for uptown and downtown areas. In
the past, the identified areas were not part of the existing review. The review forms
have been revised to capture all inspection areas. Random audits will be conducted to
ensure a target of 90% sustained compliance.

Recommendation 11. We recommended that processes be strengthened to ensure
that acute care staff provide and document PU education for patients at risk for and with
PUs and/or their caregivers and that compliance be monitored.

Concur

Target date for completion: December 15, 2013

Facility response: To ensure that staff is documenting the education provided to patients
at risk for PU and their caregivers, a program outlining the method of documenting this
in the EHR will be provided by the wound care nurse. The unit skin care champion or
designee will be responsible for auditing, tracking and trending results for compliance in
the existing performance improvement excel database. Random audits will be
conducted to maintain a target of 90% sustained compliance.


VA OIG Office of Healthcare Inspections                                                        21
                                  CAP Review of the Charlie Norwood VA Medical Center, Augusta, GA


Recommendation 12. We recommended that processes be strengthened to ensure
that equipment used for medication administration is routinely inspected and repaired or
removed from service.

Concur

Target date for completion: December 15, 2013

Facility response: To address this problem, a systematic program for replacement of
older scanners has been launched and over 18 new scanners have been replaced. In
addition, a review of the policy for handling damaged equipment will be completed and
revisions made as appropriate. The process will include, a replacement cart, if it is
necessary to remove a BCMA cart from use. A task force has examined the usage and
inspection concerns. A random audit for proper identification of service needs and
completion/follow-up has been completed with a target of 90% sustained compliance.

Recommendation 13. We recommended that processes be strengthened to ensure
that prescription medications are secured at all times and that compliance be monitored.

Concur

Target date for completion: December 15, 2013

Facility response: Medications will not be stored in patient rooms but kept in the BCMA
cart or in the medication room to ensure they are secure. Ongoing audits of patient’s
rooms and related areas will be conducted to ensure that medications are secure.
Compliance will be tracked and trended and the outcome data will be entered in the
excel database for a target of 90% sustained compliance.




VA OIG Office of Healthcare Inspections                                                        22
                                  CAP Review of the Charlie Norwood VA Medical Center, Augusta, GA
                                                                                       Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Jennifer Christensen, DPM, Team Leader
Contributors            Margie Chapin, RT (R), JD
                        Terri Julian, PhD
                        Melanie Oppat, MEd, LDN
                        Carl Scott
                        Joanne Wasko, LCSW
                        Sonia Whig, MS, LDN
Other                   Donald Braman, RN
Contributors            Elizabeth Bullock
                        Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Cynthia Gallegos
                        Jeff Joppie, BS
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                        23
                                  CAP Review of the Charlie Norwood VA Medical Center, Augusta, GA
                                                                                       Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Southeast Network (10N7)
Interim Director, Charlie Norwood VA Medical Center (509/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Saxby Chambliss, Lindsey Graham, Johnny Isakson, Tim Scott
U.S. House of Representatives: John Barrow, Paul C. Broun, Doug Collins, Joe Wilson


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                        24
                                      CAP Review of the Charlie Norwood VA Medical Center, Augusta, GA
                                                                                           Appendix G

                                               Endnotes

1
  References used for this topic included:

  VHA Directive 2009-043, Quality Management System, September 11, 2009.

  VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.

  VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.

  VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.

  VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation

   Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
   Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
2
  References used for this topic included:
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2009-004, Use and Reprocessing of Reusable Medical Equipment (RME) in Veterans Health
   Administration Facilities, February 9, 2009.
	 VHA Directive 2009-026, Location, Selection, Installation, Maintenance, and Testing of Emergency Eyewash and
   Shower Equipment, May 13, 2009.
	 VA National Center for Patient Safety, “Look-Alike Hemodialysis Solutions,” Patient Safety Alert 11-09,
   September 12, 2011.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04,
   January 17, 2013.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 Various requirements of The Joint Commission, the Centers for Disease Control and Prevention, the Occupational
   Safety and Health Administration, the National Fire Protection Association, the American National Standards
   Institute, the Association for the Advancement of Medical Instrumentation, the International Association of
   Healthcare Central Service Materiel Management, and the Association for Professionals in Infection Control and
   Epidemiology.
3
  References used for this topic included:
	 VHA Handbook 1108.01, Controlled Substances (Pharmacy Stock), November 16, 2010.
	 VHA Handbook 1108.02, Inspection of Controlled Substances, March 31, 2010.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA, “Clarification of Procedures for Reporting Controlled Substance Medication Loss as Found in VHA
   Handbook 1108.01,” Information Letter 10-2011-004, April 12, 2011.
	 VA Handbook 0730, Security and Law Enforcement, August 11, 2000.
	 VA Handbook 0730/2, Security and Law Enforcement, May 27, 2010.
4
  References used for this topic included:
	 VHA Directive 2008-066, Palliative Care Consult Teams (PCCT), October 23, 2008.
	 VHA Directive 2008-056, VHA Consult Policy, September 16, 2008.
	 VHA Handbook 1004.02, Advanced Care Planning and Management of Advance Directives, July 2, 2009.
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Directive 2009-053, Pain Management, October 28, 2009.
	 Under Secretary for Health, “Hospice and Palliative Care are Part of the VA Benefits Package for Enrolled
   Veterans in State Veterans Homes,” Information Letter 10-2012-001, January 13, 2012.




VA OIG Office of Healthcare Inspections                                                                       25
                                          CAP Review of the Charlie Norwood VA Medical Center, Augusta, GA



5
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National Pressure Ulcer Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
   November 2012.
6
  The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.




VA OIG Office of Healthcare Inspections                                                                 26
